~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief of Amicus Curiae Apartment
Association of Los Angeles County, Inc. DBA
Apartment Association of Greater Los Angeles in
Support of Petitioners in 20-1755, Dean Hotop, et al. v.
City of San Jose, California, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 14th day of July 2021:
Frank Alan Weiser
Attorney at Law
Suite 1212
3460 Wilshire Boulevard
Los Angeles, CA 90010-0000
(213) 384-6964
maimons@aol.com

Counsel for Petitioners
Malgorzata Laskowska
Office of City Attorney, City of San Jose
City of San Jose
200 East Santa Clara Street, 16th Floor
San Jose, CA 95113
(408) 535-1900
margo.laskowska@sanjoseca.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Richard Montevideo
Counsel of Record
Douglas J. Dennington
Kelsey Quist
Rutan & Tucker, LLP
18575 Jamboree Road, 9th Floor
Irvine, CA 92612
(714) 641-5100
rmontevideo@rutan.com
ddennington@rutan.com
kquist@rutan.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 14, 2021.

&

Amy Triplett'M-org.an
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

(

~

kb 11,,
IJ , ~

Notary Public

'

ch}/
\_)

[seal]

JOHN D. GALLAGHER
Notary P~, Stall d Qiio
My Cormlilsion Expires
rebruary 14, 2023

